HHS/OIG, Audit -"Nebraska's Foster Care IV-E Administrative Costs Claimed During the Five-Year Period Ending September 1999," (A-07-02-00144)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nebraska's Foster Care IV-E Administrative Costs Claimed During the
Five-Year Period Ending September 1999," (A-07-02-00144)
August 4, 2003
Complete
Text of Report is available in PDF format (626 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the administrative costs claimed
by Nebraska were allocable and allowable in accordance with applicable laws,
regulations, and program policies.  We found Nebraska overcharged the
Foster Care IV-E program $1,137,031 (Federal share) in adjustments to prior
periods and $3,198,511 (Federal share) for costs incurred.  Specifically,
Nebraska:   (1) overstated adjustments for prior periods because
they used an incomplete, non-statistical case review process to reclassify
foster care children as IV-E eligible; (2) allocated costs to the IV-E program
that did not relate to foster care children; (3) did not allocate allowable
costs for foster care licensing to the IV-E program (this resulted in an under
claim); and (4) used allocation procedures that were outdated or not in accordance
with their cost allocation plan.  We recommended financial adjustments
and procedural corrections.